No.____________

IN THE SUPREME COURT OF THE UNITED STATES

ALAN STARR TROWBRIDGE, Petitioner,
v.
JEFFREY WOODS, Warden, Respondent,

On Petition for Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Dated: April 19, 2021

Matthew G. Borgula (P57330)
Rachel L. Frank (P78944)
Counsel of Record
Springstead Bartish Borgula &
Lynch PLLC
60 Monroe Center St. NW, #500
Grand Rapids, MI 49503
(616) 458-5500
matt@sbbllaw.com
rachel@sbbllaw.com
Counsel for Petitioner

QUESTIONS PRESENTED FOR REVIEW
I.

Did the Sixth Circuit Court of Appeals decide an important question of
federal law in a way that conflicts with this Court’s holding in Strickland
v. Washington?

ii

PARTIES TO THE PROCEEDINGS
Petitioner is Alan Trowbridge, a citizen of the United States of America.
Respondent is Jeffrey Woods, Warden.
DIRECTLY RELATED PROCEEDINGS
Alan Trowbridge v. Jeffrey Woods, No. 19-1434. United States Court of Appeals for
the Sixth Circuit. Judgment entered November 19, 2020.
Alan Trowbridge v. Jeffrey Woods, No. 2:15-cv-186. United States District Court for
the Western District of Michigan. Judgment entered April 18, 2019.
Alan Trowbridge v. Jeffrey Woods, No. 2:15-cv-186. United States District Court for
the Western District of Michigan. Report and Recommendation filed February 28,
2019.
Alan Trowbridge v. Jeffrey Woods, No. 146357. Michigan Supreme Court. Order
entered April 17, 2015.
Alan Trowbridge v. Jeffrey Woods, No. 300460. Michigan Court of Appeals.
Judgment entered September 25, 2012.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED……………………………………………………….......

ii

PARTIES TO THE PROCEEDINGS………………………………………………….

iii

DIRECTLY RELATED PROCEEDINGS…………………………………………….

iii

TABLE OF AUTHORITIES……………………………………………………………. v
PETITION FOR WRIT OF CERTIOARI……………………………………………..

1

OPINIONS BELOW……………………………………………………………………..

1

STATEMENT OF JURISDICTION…………………………………………………... 2
STATUTORY AND CONSTITUTIONAL AUTHORITY…………………………..

2

STATEMENT OF THE CASE…………………………………………………………. 3
REASONS FOR GRANTING THE PETITION……………………………………..
I.
The Appellate Court’s Decision Conflicts with This Court’s Precedent
Regarding What Constitutes Prejudice Resulting from Counsel’s
Deficient Performance…………………………………………………………..

10
10

CONCLUSION…………………………………………………………………………… 24
APPENDIX………………………………………………………………………………..

iv

25

TABLE OF AUTHORITIES
Cases
Davis v. Lafler, 658 F.3d 525 (6th Cir. 2011)…………………………………………. 19
Ferensic v. Birkett, 501 F.3d 469 (6th Cir. 2007)……………………………………… 19
Jones v. United States, 504 F. App'x 405 (6th Cir. 2012)……………………………. 15
Lafler v. Cooper, 566 U.S. 156 (2012)………………………………………………. 11, 15
Lee v. United States, 137 S. Ct. 1958 (2017)…………………………………………… 15
Magana v. Hofbauer, 263 F.3d 542 (6th Cir. 2001)…………………………………… 22
Miller v. Straub, 299 F.3d 570 (6th Cir. 2002)………………………………………… 13
Moss v. United States, 323 F.3d 445 (6th Cir. 2003)…………………………………. 13
People v. Scott, No. 303671, 2012 Mich. App. LEXIS 1929 (Ct. App. Oct. 9, 2012)..13
Satterlee v. Wolfenbarger, 453 F.3d 362 (6th Cir. 2006)………………………………. 22
Strickland v. Washington, 466 U.S. 668 (1984)…………………………… 11, 12, 13, 14
Turner v. Tennessee, 858 F.2d 1201 (6th Cir. 1988)……………………………………..22
United States v. Franklin, 415 F.3d 537 (6th Cir. 2005)………………………………..14
Statutes
28 U.S.C. § 1254………………………………………………………………………………..2
28 U.S.C. § 1291………………………………………………………………………………..2
28 U.S.C. § 2253……………………………………………………………………………….2
28 U.S.C. § 2254……………………………………………………………………………….2
MCL 750.520b……………………………………………………………………………….3, 4
MCL 750.520d……………………………………………………………………………...4, 18

v

MCL 769.10(a)…………………………………………………………………………….........4
Other
U.S. Const. amend VI………………………………………………………………………….2
MCR 6.104(E)(1)………………………………………………………………………………13

vi

PETITION FOR WRIT OF CERTIORARI
Petitioner Alan Trowbridge respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Sixth Circuit in
docket number 19-1434 was issued on November 19, 2020 and it is unpublished.
Trowbridge v. Woods, 835 F. App'x 100 (6th Cir. 2020). The opinion of the United
States District Court for the Western District of Michigan in docket number 2:15-cv186 was issued on April 18, 2019, and it is unpublished. Trowbridge v. Woods, No.
2:15-CV-186, 2019 U.S. Dist. LEXIS 66041 (W.D. Mich. Apr. 18, 2019). The report
and recommendation of the magistrate judge of the United States District Court for
the Western District of Michigan in docket number 2:15-cv-186 was issued on
February 28, 2019. Trowbridge v. Woods, No. 2:15-cv-186, 2019 U.S. Dist. LEXIS
66122 (W.D. Mich. Feb. 28, 2019). The order denying the application for leave to
appeal of the Michigan Supreme Court in docket number 146357 was issued on
April 17, 2015. People v. Trowbridge, 497 Mich. 1002, 861 N.W.2d 624 (2015). The
opinion of the Michigan Court of Appeals in docket number 300460 was issued on
September 25, 2012 and it is unpublished. People v. Trowbridge, No. 300460, 2012
Mich. App. LEXIS 1862 (Ct. App. Sep. 25, 2012).

1

STATEMENT OF JURISDICTION
The district court had jurisdiction over Mr. Trowbridge’s federal habeas
petition under 28 U.S.C. § 2254. The district court entered a final judgment
denying the habeas petition and granted a certificate of appealability. The Sixth
Circuit had jurisdiction on appeal under 28 U.S.C. § 1291 and 2253.
The Sixth Circuit’s opinion was filed on November 19, 2020. There was no
petition for rehearing. The Sixth Circuit’s mandate issued on December 14, 2020.
This Court has jurisdiction under 28 U.S.C. §§ 1254(1) and 2254. On March 19,
2020, this Court issued an order extending the deadline to file any petition for a
writ of certiorari to 150 days from the date of the lower court judgment.
STATUTORY AND CONSTITUTIONAL AUTHORITY
The Sixth Amendment to the United States Constitution provides in relevant
part: “In all criminal prosecutions, the accused shall enjoy the right to…have the
Assistance of Counsel for his defense.”
28 U.S.C. § 2254 provides that:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district
court shall entertain an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the judgment of a State
court only on the ground that he is in custody in violation of the
Constitution or laws or treaties of the United States.
***
(d) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted
with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—

2

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States…
STATEMENT OF THE CASE
State District and Circuit Court Trial Proceedings
On or about March 23, 2010, the Grand Traverse County Prosecutor charged
Mr. Trowbridge with two counts of criminal sexual conduct in the first degree under
MCL 750.520b(2)(c). (Appendix, 40a.) On May 6, 2010, at Mr. Trowbridge’s
preliminary examination and Circuit Court arraignment, the Grand Traverse County
Prosecutor added three counts of criminal sexual conduct in the first degree under
MCL 750.520b(2)(c). (R. 10-2, Preliminary Exam and Circuit Court Arr. Tr., PageID#
171); (R.10-15, Michigan Court of Appeals Case 300460 , PageID# 1424).1 Counsel for
Mr. Trowbridge waived a reading of the felony information at the arraignment
believing incorrectly that he understood “what he’s charged with and what the
consequences and the penalties are.” (R. 10-2, Preliminary Exam and Circuit Court
Arr. Tr., PageID# 171). At no time prior to trial did Mr. Trowbridge’s trial counsel,
the prosecutor, or the Grand Traverse District and Circuit Court ever advise Mr.
Trowbridge that he faced mandatory lifetime imprisonment if convicted without the
possibility of parole if convicted. MCL 750.520b(2)(c). To the contrary, the charging
documents state incorrectly that the penalties upon conviction were “life or any term
of years,” misleading Mr. Trowbridge to believe that the Court had discretion to

Mr. Trowbridge was ultimately convicted of three counts because the victim did not testify
sufficiently as to two of the counts at trial, and the prosecutor dismissed them.
1

3

sentence Mr. Trowbridge to some term of years less than life. (R.10-15, Michigan
Court of Appeals Case 300460, PageID# 1420-25).
At the final pretrial conference on July 30, 2010, the government offered that
in exchange for a guilty plea to two counts of criminal sexual conduct in the third
degree as a habitual offender, the Court would not sentence Mr. Trowbridge to more
than 22 ½ years in prison. MCL 750.520d, MCL 769.10(a) (R.10-14, Final Conf.
Memo, PageID# 1351). Because the Court had advised him that he could still receive
a sentence less than life without chance of parole, and believing that his sentencing
guidelines would be less than 30 years, Mr. Trowbridge rejected the offer and chose
to proceed to trial. (R. 10-9, Sentencing Tr., PageID# 1213; R.10-14, Final Conf.
Memo, PageID# 1351.) Mr. Trowbridge believed based on the advice of his counsel,
the prosecutor, and the court, that he could not receive a mandatory life sentence and
that he would be eligible for parole even if convicted at trial. (Id.) MCL 750.520b.
On August 9, 2010, the first scheduled day of trial, the government offered,
and Mr. Trowbridge accepted, to plead guilty to three counts of criminal sexual
conduct in the third degree (without the habitual offender), which would have carried
a maximum sentence of fifteen years. MCL 750.520d(2)(b). (R.10-11, Evidentiary
Hearing Tr., PageID# 1259). The Circuit Court refused to accept his plea and advised
Mr. Trowbridge that it was too late for him to plead to a reduced charge. (Id. at
PageID# 1234). Mr. Trowbridge, left with no other option other than to plead guilty
as charged and believing that he would not be subject to mandatory life
imprisonment, proceeded to trial and was convicted on three counts of criminal sexual

4

conduct first degree on August 12, 2010. (R.10-1, Grand Traverse County Docket,
PageID# 87).
At the time of the verdict, Mr. Trowbridge, his defense counsel, and the
prosecutor remained ignorant of the mandatory life sentence that accompanied the
convictions. (R.10-11, Evidentiary Hearing Tr., PageID# 1245). On September 10,
2010, the day scheduled for sentencing, Mr. Trowbridge learned for the first time that
his conviction called for mandatory life imprisonment without parole. (Id.) Counsel
for Mr. Trowbridge requested, and was granted, a brief adjournment until September
27, 2010, when the Court, by operation of law, sentenced Mr. Trowbridge to three
terms of life imprisonment without the possibility of parole.

At the time of

sentencing, the Court ordered, “the mandatory sentence is life in prison without
parole…[a]ll three counts are life in prison without parole.” (R.10-9, Sentencing Tr.,
PageID# 1214-15).
State Post-Conviction Proceedings
Mr. Trowbridge appealed his conviction and sentence to the Michigan Court of
Appeals, and the case was remanded for an evidentiary hearing on the issue of
whether Mr. Trowbridge received effective assistance of counsel. (R. 10-15, Mich. Ct.
App. Order, PageID#1463). Mr. Trowbridge’s ineffective assistance claim was
rejected by the trial court, and he renewed his appeal. (Appendix, 40a.) The trial court
found that Mr. Trowbridge’s counsel’s performance was, in fact, deficient under the
first prong of Strickland v. Washington; however, it held that Mr. Trowbridge had not
satisfied the second prong -- that he was prejudiced by his counsel’s deficient

5

performance -- as the Court found that Mr. Trowbridge would have rejected the plea
offer, even if he had known about the risk of mandatory life in prison. (Appendix,
42a.) The trial court held that because a life sentence was possible, it did not matter
that a life sentence was mandatory, especially where, as here, his chances of acquittal
at trial were slim. Id.
Mr. Trowbridge appealed again to the Michigan Court of Appeals, and
argued that the Circuit Court erred when it held on remand that his counsel’s failure
to properly advise him of the mandatory penalty he faced did not cause him prejudice.
(R. 10-15, Defendant-Appellant’s Brief, PageID# 1397, 1400). The Michigan Court of
Appeals conceded that the performance of Mr. Trowbridge’s trial counsel was
deficient, but held that Mr. Trowbridge failed to establish prejudice as he had not
shown that he would have accepted the July 30 plea offer, even if he had known about
the mandatory life sentence. (Appendix, 45a.)
Mr. Trowbridge appealed the denial by the Michigan Court of Appeals to the
Michigan Supreme Court, which declined to hear the appeal because it was “not
persuaded that the question presented should be reviewed by this Court.” (Appendix,
39a.)
Federal Habeas Proceedings
Having exhausted his State court remedies, Mr. Trowbridge brought a
habeas petition in the Western District of Michigan under 28 U.S.C. § 2254, based
upon a claim of ineffective assistance of counsel. Specifically, Mr. Trowbridge
contended that his trial counsel’s ignorance of the possible sentence was

6

constitutionally ineffective. Had Mr. Trowbridge known that he risked mandatory
life in prison if he were convicted at trial, he would have accepted the plea offer made
by the government on July 30, 2010, which would have carried a maximum sentence
of 22 ½ years.
On or about May 31, 2017, undersigned counsel was appointed to represent
Mr. Trowbridge pursuant to the Criminal Justice Act. On February 28, 2019,
Magistrate Judge Timothy Greeley, after receiving briefs from both parties,
submitted a report and recommendation to the district court, recommending that the
district court grant Mr. Trowbridge’s request for relief. (Appendix, 18a.) The
magistrate judge recommended relief because he found that Mr. Trowbridge:
did not have a basic understanding of the penalties he was facing
because of ineffective assistance of counsel. Without this knowledge,
Petitioner could not evaluate any plea offer or make an informed
decision on an offer. This is a fundamental defect that prejudiced
Petitioner. Petitioner did accept a plea offer the day of trial without
knowing the actual penalty he was facing. This is clear evidence that
he would have reached a plea deal much earlier had he known the
penalty he was facing. Appendix, 35a.
On April 18, 2019, the district court issued an order rejecting the report and
recommendation, and denying Mr. Trowbridge’s habeas petition. (Appendix, 11a.)
The court held that although Mr. Trowbridge’s counsel’s performance was deficient
and satisfied the first prong of Strickland, the state trial court correctly applied the
Strickland test because Mr. Trowbridge had failed to show that there was a
reasonable probability that he would have accepted the July 30, 2010 plea offer if he
had been properly advised of the mandatory life sentence, and therefore did not
satisfy the second prong. (Appendix, 16a.) The district court based its decision on Mr.

7

Trowbridge’s decision to proceed to jury trial, despite his counsel’s advice that his
chance of acquittal at trial was very slim, that if convicted at trial he would face a
lengthy sentence that could exceed natural life and was unlikely to be paroled early,
and the fact that Mr. Trowbridge attempted to accept the July 30, 2010 plea offer as
a “no contest” plea, and then took the stand at trial to deny the allegations against
him. (Appendix, 15a-16a.) The district court found that the trial court was not
unreasonable in its application of Strickland because “state court factual findings are
presumed correct…and Trowbridge has not offered clear and convincing evidence to
rebut the trial court’s finding that there was not a reasonable probability that
Trowbridge would have accepted the July 30, 2010, plea offer if not for the deficient
performance of defense counsel.” (Appendix, 16a.) Because the district court rejected
the report and recommendation, the district court granted a certificate of
appealability. (Appendix, 16a.)
Mr. Trowbridge appealed the district court’s decision to the Sixth Circuit Court
of Appeals. On November 19, 2020, the Court issued an opinion denying Mr.
Trowbridge’s appeal. The Court held that “it was not objectively unreasonable for the
Michigan Court of Appeals to find that there was no reasonable probability
Trowbridge would have accepted a plea offer had he known he was facing a
mandatory sentence of life without the possibility of parole,” based on the disparity
between the sentence Mr. Trowbridge thought he risked, and the one he actually
faced, his counsel’s advice that he was unlikely to be paroled early, and on Mr.

8

Trowbridge’s assertions of innocence at trial. (Appendix, 8a.) The court concluded
that:
“our task under AEDPA review is not to decide whether the state
court was correct, or whether we would have decided the case
differently…[w]e must deny the writ unless the state court’s
decision was objectively unreasonable, meaning that there is no
possibility for fairminded disagreement…[i]n this case, the
Michigan Court of Appeals gave a reasoned explanation for its
finding that there was no reasonable probability that, but for the
deficient performance of his trial counsel, Trowbridge would have
pled guilty. Based on the record before that court, we cannot say
that its decision was objectively unreasonable.” (Appendix, 9a10a.)

9

REASONS FOR GRANTING THE PETITION
Mr. Trowbridge now seeks further review in this Court and offers the
following reasons why a writ of certiorari is warranted.
I.

The Appellate Court’s Decision Conflicts with This Court’s Precedent
Regarding What Constitutes Prejudice Resulting from Counsel’s
Deficient Performance.
Mr. Trowbridge was prejudiced by his counsel’s deficient performance under

this Court’s opinion in Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052 (1984),
and Lafler v. Cooper, 566 U.S. 156 (2012). On or about August 12, 2010, in Grand
Traverse County, a jury returned a guilty verdict against Alan Trowbridge on three
counts of criminal sexual conduct in the first degree. Like most defendants charged
with a felony crime in State court, Mr. Trowbridge was offered a plea deal prior to
trial. In this case, the prosecution offered to cap Mr. Trowbridge’s sentence at 22 ½
years in prison in exchange for a guilty plea on two counts of criminal sexual conduct
in the third degree.
At the time of the plea offer, Mr. Trowbridge’s counsel incorrectly advised him
that he could receive parole even if he were convicted after trial on the original
charges.

Further, at critical stages of the proceedings, the court advised Mr.

Trowbridge that he could be sentenced to “a term of years.” (R.10-15, Michigan Court
of Appeals Case 300460, PageID# 1420.) Believing his choice was between 22 ½ years
in prison and a possibly greater period of years in prison with the chance of parole,
Mr. Trowbridge elected to proceed to trial. A jury convicted Mr. Trowbridge. At
sentencing Mr. Trowbridge learned, for the first time from anyone, that he faced

10

mandatory life in prison. Because he was not properly advised of the sentence he
would receive if convicted, and because Mr. Trowbridge did not accept the plea offer
as a result, Mr. Trowbridge’s counsel’s performance was deficient and he was
prejudiced by his counsel’s deficient performance.
To prevail on a claim of ineffective assistance of counsel, a petitioner must
satisfy the two-prong test set forth in this Court’s decision in Strickland v.
Washington: (1) that his trial counsel’s performance was deficient, and (2) that the
deficient performance prejudiced his defense. Strickland v. Washington, 466 U.S. 668,
687 (1984). This Court has held that a counsel’s performance is deficient if he makes
errors “so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment,” and if the representation “fell below an objective
standard of reasonableness.” Id. The second prong, that the petitioner be prejudiced,
is satisfied when “there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.” Id. at
694.
This Court specifically addressed the issue of a defendant rejecting a plea offer
based on bad advice from counsel in Lafler v. Cooper, 566 U.S. 156, 164 (2012). In
that case, the defendant rejected a plea offer upon inadequate advice from counsel,
and was later convicted at trial. Id. The defendant argued that his lawyer was
constitutionally ineffective because he failed to counsel him on the possible plea offers
before he decided to go to trial. Id. at 161. When deciding whether the defendant had
been prejudiced by his lawyer’s bad advice, the Court considered whether “there is a

11

reasonable probability that (1) the defendant would have accepted the plea, (2) the
prosecution would not have withdrawn it in light of intervening circumstances, (3)
the court would have accepted its terms, and (4) the conviction or sentence, or both,
under the offer's terms would have been less severe than under the judgment and
sentence that in fact were imposed.” Id. at 164.
1. It is undisputed that Mr. Trowbridge’s counsel’s performance was
deficient.
Every court to consider the issue has found that Mr. Trowbridge’s counsel’s
performance was deficient. (Appendix, 6a.)

Indeed, at the evidentiary hearing

regarding Mr. Trowbridge’s ineffective assistance of counsel claim, the trial court,
prosecutor, and appellate counsel for Mr. Trowbridge all conceded that the trial
counsel’s performance was below the acceptable standard, and that the first prong of
Strickland was satisfied. (R.10-11, Evidentiary Hearing Tr., PageID# 1230). The trial
court judge, prosecutor, and Mr. Trowbridge’s trial counsel readily admitted that they
were unaware of the law mandating a mandatory life sentence. (R.10-11, Evidentiary
Hearing Tr., PageID# 1229, 1247, 1259, 1262, 1273). It was not until the day of
sentencing when Mr. Trowbridge was first advised that his decision to go to trial
would result in mandatory life in prison, should he be convicted. (R.10-11,
Evidentiary Hearing Tr., PageID# 1229, 1247, 1259, 1262, 1273).
Mr. Trowbridge’s counsel’s lack of basic knowledge of a common criminal
statute fell below any objective standard of reasonableness, rendering counsel’s
performance deficient under the first prong of Strickland. Mr. Trowbridge’s trial
counsel failed to read the statute that laid out the elements and penalties of the crime,

12

and mistakenly told Mr. Trowbridge that his sentence would be a term of years, and
that he would someday be eligible for parole. (R.10-11, Evidentiary Hearing Tr.,
PageID# 1245, 1250, 1262). Mr. Trowbridge’s counsel unquestionably had a duty to
his client to inform him of the possible sentence he would face; here, a task made
easier by the fact that the mandatory life sentence was clearly explained in the
statute. See Miller v. Straub, 299 F.3d 570, 580 (6th Cir. 2002) (“counsel must ensure
that the client's decision is as informed as possible”); Moss v. United States, 323 F.3d
445, 474 (6th Cir. 2003) (“failure to provide professional guidance to a defendant
regarding his sentence exposure prior to a plea may constitute deficient assistance.”)
Further, the trial court also failed to inform Mr. Trowbridge of the charges against
him and the maximum and mandatory minimum sentences at the arraignment, as
required under MCR 6.104(E)(1). People v. Scott, No. 303671, 2012 Mich. App. LEXIS
1929, at *4 (Ct. App. Oct. 9, 2012) (at the arraignment, the court must state the
substance of the charge to the defendant prior to the entry of a plea.) The purpose of
this requirement is to ensure that a defendant is able to make informed decisions
throughout the plea negotiation process, and to be cognizant of exactly what he is
risking if he chooses to proceed to trial.2
2.

Mr. Trowbridge was prejudiced by his counsel’s ineffective assistance.
Despite

universal

acceptance

that

Mr.

Trowbridge’s

attorney

was

constitutionally ineffective, that deficiency must still be found to material and cause

Even assuming that the district court informed Mr. Trowbridge of the charges and penalties at his
district court arraignment, the penalties explained to him would also have been incorrect because
the charging documents incorrectly stated the penalties as “life or any term of years.” (R.10-15,
Defendant-Appellant’s Brief, PageID# 1420-25).
2

13

prejudice. Strickland v. Washington, 466 U.S. 668, 687 (1984. Here, the Circuit Court
found no prejudice because in its view there was not a reasonable probability that
Mr. Trowbridge would have accepted the July 30, 2010 plea offer, even if he had been
correctly advised. “Given the evidence before the Michigan Court of Appeals, it is not
objectively unreasonable for that court to conclude that Trowbridge would not have
accepted a plea offer before trial even if knew he was facing a sentence of life without
the possibility of parole.” (Appendix, 8a-9a.)
When affirming the District Court, the Circuit Court relied on the testimony
of Mr. Trowbridge’s trial counsel, and counsel’s advice to Mr. Trowbridge that he had
a low chance of acquittal at trial, and that if convicted, he would face a lengthy
sentence that would amount to life in prison, with a low chance of early parole. Id at
8a. Further, the Court found that Mr. Trowbridge would not have provided a factual
basis for a guilty plea, because the only plea he attempted was a no contest plea, after
which he took the stand in his defense at trial. Id at 9a.
A defendant is prejudiced by ineffective assistance of counsel when, but for the
counsel’s mistake, the outcome would have been significantly different. Strickland v.
Washington, 466 U.S. 668, 694 (1984); see United States v. Franklin, 415 F.3d 537,
556 (6th Cir. 2005) (defendant must satisfy two-part Strickland test to prevail on
habeas claim). The Sixth Amendment right to counsel extends to pretrial
negotiations. Missouri v. Frye, 566 U.S. 134 (2012). Here, Mr. Trowbridge’s counsel
made a fundamental error and as a result provided Mr. Trowbridge with incorrect
options: take a plea deal capped at 22 ½ years or go to trial and face more time but

14

not mandatory life. Mr. Trowbridge need not show that he would have chosen a
different option had he been advised correctly, because, unaware of those options, no
one knows what he would have done. He need only show that there was a reasonable
probability that he would have chosen differently had he been provided with accurate
options.
In Lafler v. Cooper, 566 U.S. 156, 164 (2012), the defendant rejected a plea offer
upon inadequate advice from counsel, and was later convicted at trial. Lafler v.
Cooper, 566 U.S. 156, 164 (2012). The defendant argued that his lawyer was
constitutionally ineffective because he failed to counsel him on the possible plea offers
before he decided to go to trial. (Id. at 161). When deciding whether the defendant
had been prejudiced by his lawyer’s bad advice, the Court considered whether: “there
is a reasonable probability that (1) the defendant would have accepted the plea, (2)
the prosecution would not have withdrawn it in light of intervening circumstances,
(3) the court would have accepted its terms, and (4) the conviction or sentence, or
both, under the offer's terms would have been less severe than under the judgment
and sentence that in fact were imposed.” Lafler at 187; see also, Lee v. United States,
137 S. Ct. 1958, 1964 (2017) (a defendant has the right to the effective assistance of
counsel during plea negotiations); Jones v. United States, 504 F. App'x 405, 407 (6th
Cir. 2012) (defendant establishes prejudice under Lafler if the loss of the plea
opportunity led to a trial resulting in a more serious sentence). Here, as in Lafler,
Mr. Trowbridge has shown that his counsel’s bad advice caused him prejudice, and
the appellate court’s finding was in violation of this Court’s precedent.

15

a.

Mr. Trowbridge would have accepted the plea had he been given
proper advice.

The Circuit Court held that although Mr. Trowbridge’s counsel’s performance
was deficient and satisfied the first prong of Strickland, the Michigan Court of
Appeals correctly applied the Strickland test as Mr. Trowbridge had failed to show
that there was a reasonable probability that he would have accepted the July 30, 2010
plea offer had he been properly advised of the mandatory life sentence. (Appendix,
9a.) The Circuit Court relied on Mr. Trowbridge’s decision to choose one of the faulty
options before him and proceed to jury trial. (Appendix, 7a-9a.)
The Circuit Court erred because had Mr. Trowbridge been provided with
accurate options, there is a reasonable probability that someone in his position
would have accepted a plea deal offered to him on July 30, 2010. Mr. Trowbridge’s
counsel correctly advised him as to the low chance of success at trial and the likely
lengthy sentence if convicted; however, he did not rely on those factors when deciding
whether to take his chances at trial. Mr. Trowbridge’s counsel advised him that—
win or lose at trial—he would always have the possibility of parole. No one advised
him that if he lost at trial, he would absolutely die in prison. To the contrary, he was
advised that he would have the possibility of parole sometime after a term of years in
prison.
While Mr. Trowbridge need only show a reasonable probability that he would
have taken the plea, the conciliatory testimony of Mr. Trowbridge’s trial counsel
establishes conclusively that he would have done so. Mr. Trowbridge’s trial counsel
testified at the evidentiary hearing that he believed Mr. Trowbridge would have

16

accepted the offer, had he been properly advised. (R.10-11, Evidentiary Hearing Tr.,
PageID# 1256.) Further, Mr. Trowbridge would have pleaded guilty to the August 9
offer, even though he was still unaware of the mandatory life sentence. (R.10-11,
Evidentiary Hearing Tr., PageID# 1233-34); (“I [Mr. Trowbridge’s trial counsel] was
instructed by [Mr. Trowbridge] to put the plea on.”) (R.10-11, Evidentiary Hearing
Tr., PageID# 1259). Mr. Trowbridge’s willingness to plead, made impossible only by
the trial court’s refusal to accept the plea, shows that he would have accepted a plea
offer prior to the trial court’s cutoff date if he had known about the mandatory life
sentence.
b.

The prosecutor would not have withdrawn the plea.

It is undisputed that the prosecutor would not have withdrawn the July 30
plea, had Mr. Trowbridge accepted it prior to the plea cutoff date. To the contrary,
the prosecutor offered a plea on August 9, the first day of trial, and did not withdraw
it. (R. 10-11, Evidentiary Hrg. Tr., PageID# 1259.) Mr. Trowbridge accepted that
offer, and was prevented from pleading to the offer by the trial court judge. Id. at
PageID# 1258.
c.

The trial court would not have rejected a timely guilty plea.

At the evidentiary hearing, the trial court confirmed that it would have
accepted a timely guilty plea, and did not accept Mr. Trowbridge’s August 9 plea
because it was past the cutoff date: “I don’t even think [Mr. Trowbridge’s trial counsel
and the prosecutor] got the description of the plea agreement out, because I told them
forget it. Not going to happen…you cannot run a docket with people pleading the day

17

of trial.” (Evidentiary Hearing Tr., PageID# 1233-34). The trial court gave no
indication that it would not have accepted a guilty plea prior to the cutoff date.
d.

The sentence under the plea deal would have been significantly
less severe than the one imposed.

The trial court sentenced Mr. Trowbridge to mandatory life, without parole on
his conviction for first-degree criminal sexual conduct. The offer made on July 30th
was to plead guilty to two counts of third-degree criminal sexual conduct as a habitual
offender, which would have by agreement and statute carried a maximum sentence
of 22 ½ years. MCL 750.520d(2); (Appendix, 42a; Plaintiff-Appellee’s Brief on
Defendant-Appellee’s Motion to Remand, PageID#1440). Any term of prison is
significantly less than the mandatory life sentence. The plea offered on August 9 of
two counts of third-degree criminal sexual conduct without the habitual offender
enhancement, which Mr. Trowbridge attempted to accept, carried a maximum of
fifteen years. (R.10-11; Evidentiary Hearing Tr., PageID#1259).
Having satisfied the four-factor Lafler test and certified that he would have
accepted the plea, if not for his trial counsel’s deficient performance, Mr. Trowbridge
suffered prejudice. See, e.g., Jones v. United States, 504 F. App'x 405, 407 (6th Cir.
2012) (defendant’s counsel was ineffective under the first prong of Strickland because
he advised defendant to withdraw his guilty pleas on remand, allowing the
government to supersede the indictment, and defendant was prejudiced under the
second prong because he received a lengthier sentence at trial than he would have
received under the original plea agreement). To restore him to the position in which
he would have been if he had received the proper assistance of counsel during plea

18

negotiations, Mr. Trowbridge should have the opportunity to accept the July 30, 2010
offer of two counts of third-degree criminal sexual conduct as a habitual offender, now
that he is aware of and is serving the mandatory life sentence.
3.

The appellate court erred in holding that the Michigan Court of
Appeals denial of Mr. Trowbridge’s ineffective assistance claim was
not contrary to federal law or unreasonable.
For a federal court to grant habeas relief under AEDPA, Mr. Trowbridge must

show that the Michigan Court of Appeals decision to reject his claim was contrary to
federal law or was unreasonable. A state court decision is contrary to federal law “if
the state court arrives at a conclusion opposite to that reached by [the Supreme
Court] on a question of law or if the state court decides a case differently than [the
Supreme Court] has on a set of materially indistinguishable facts.” Davis v. Lafler,
658 F.3d 525, 529 (6th Cir. 2011) (internal quotations and citations omitted). For a
state court decision to be an unreasonable application of federal law, it must be
“objectively unreasonable, not simply erroneous or incorrect.” Ferensic v. Birkett, 501
F.3d 469, 472 (6th Cir. 2007) (internal quotations and citations omitted); see also
Wiggins v. Smith, 539 U.S. 510, 520-21 (2003) (“[i]n order for a federal court find a
state court's application of [Supreme Court] precedent unreasonable, the state court's
decision must have been more than incorrect or erroneous. The state court's
application must have been objectively unreasonable.”) (internal quotations and
citations omitted).
Here, the Michigan Court of Appeals held that “we are not left with the definite
and firm conviction that the trial court made a mistake when it concluded that

19

defendant had not established a reasonable probability that he would have accepted
the prosecution’s final pretrial plea offer with proper advice regarding the mandatory
sentence he faced if convicted at trial.” (Appendix, 45a.)
The Circuit Court held that the Michigan Court of Appeals denial was not
unreasonable, based on the evidence presented, because it was not unreasonable for
the court to find that “there was no reasonable probability that but for trial counsel’s
error, Trowbridge would have accepted the second plea offer.” (Appendix, 7a.) To
make that determination, the Court considered the disparity between the penalty Mr.
Trowbridge was offered in a plea, and the penalty he actually faced, which the Court
did not deem significant: “Trowbridge knew when he rejected the government’s plea
offer on July 30 that he was facing a sentence close to if not exceeding his natural life
and that he was unlikely to be released early on parole.” (Appendix, 8a.) A sentence
“close to if not exceeding his natural life,” however, is not synonymous with
“mandatory life.” If Mr. Trowbridge’s attorney had told him that he “would face a
lengthy sentence that could exceed his natural life” with the chance of parole, no
matter how small the chance of parole was, he still would have been given ineffective
counsel.

The only correct advice was to advise Mr. Trowbridge that he faced

“mandatory” life upon conviction at trial. There is a material difference. If his lawyer
had told him he would die in prison – guaranteed – then he would have pled guilty
with the hope that he might leave prison some day.
Further, the Circuit Court gave undue weight to Mr. Trowbridge’s “assertions
of innocence at trial and his failure to present his own testimony at the evidentiary

20

hearing,” which “suggested an unwillingness to plead guilty before trial.” (Appendix,
8a.) Every defendant enjoys a presumption of innocence, and Mr. Trowbridge’s
decision to exercise his right to trial does not mean he would not have pleaded guilty
given proper advice. Mr. Trowbridge went to trial because he was told he did not
have much to lose. According to his lawyer, he would be eligible for parole someday
whether he was convicted by guilty plea or by jury. The Circuit Court cannot fault
Mr. Trowbridge for believing he had little to lose when his lawyer told him so.
The Circuit Court also determined that Mr. Trowbridge’s “consent to a no
contest plea rather than a guilty plea could be viewed as evidence that Trowbridge
would only have accepted a plea offer if he did not have to plead guilty, and that “the
existence of some evidence in Trowbridge’s favor does not mean that the Michigan
Court of Appeals was objectively unreasonable to deny his ineffective assistance of
counsel claim given the entirety of the record.” Id. The Court’s reasoning ignores
that, without even knowing the sentence that awaited him, Mr. Trowbridge agreed
to plead no contest on the day of trial, and was only prevented from doing so by the
trial court. Had he known that he faced a mandatory life sentence, he would have
pled guilty to avoid that fate. He could have made a factual basis then, just as he is
willing to do it now. He will plead guilty, and would have pleaded guilty, if given the
chance to do so.
No one in Mr. Trowbridge’s position could have properly evaluated and
considered the plea offers made before trial. No one in Mr. Trowbridge’s position
could have made a knowing and voluntary plea because any plea would have been

21

based on incorrect legal advice. Based upon the legal advice provided by his counsel,
Mr. Trowbridge was aware that he would face a long prison sentence if he were
convicted at trial, but reasonably believed that he would at least be eligible for parole.
Had Mr. Trowbridge known that he would receive a life sentence without the
possibility of parole if he were convicted at trial, he would have accepted the plea offer
made on July 30, 2010, which would have carried a maximum sentence of 22 ½ years.
The Michigan Court of Appeals decision to the contrary was objectively unreasonable,
and the Circuit Court erred in finding otherwise.
4.

Mr. Trowbridge should be given the opportunity to accept, and be
resentenced under the July 30 plea offer.
Habeas relief for the ineffective assistance of counsel is “subject to the general

rule that remedies should be tailored to the injury suffered from the constitutional
violation.” Satterlee v. Wolfenbarger, 453 F.3d 362, 370 n.7 (6th Cir. 2006) (internal
quotations and citations omitted); Magana v. Hofbauer, 263 F.3d 542, 553 (6th Cir.
2001) (the remedy “should be tailored to the injury suffered from the constitutional
violation and should not unnecessarily infringe on competing interests.”) (internal
quotations and citations omitted). Further, “[t]he only way to effectively repair the
constitutional deprivation [the petitioner] suffered is to restore him to the position in
which he would have been had the deprivation not occurred,” and where “defendant
receives a greater sentence than one contained in a plea offer that he would have
accepted if not for the ineffective assistance of counsel, the properly tailored remedy
is to give the defendant the opportunity to accept the offer.” Satterlee at 370, n.7; see
also Turner v. Tennessee, 858 F.2d 1201, 1208 (6th Cir. 1988) (petitioner must be

22

allowed to consider the offer with the effective assistance of counsel). Here, Mr.
Trowbridge should be given the opportunity to accept the government’s offer of July
30, 2010 with a sentencing cap of 22 ½ years.

23

CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be
granted.
Dated:

April 19, 2021
Respectfully submitted,
Matthew G. Borgula
Rachel L. Frank
Counsel of Record
SPRINGSTEAD BARTISH BORGULA &
LYNCH, PLLC
60 Monroe Center St. NW, #500
Grand Rapids, Michigan 49503
(616) 458-5500
matt@sbbllaw.com
rachel@sbbllaw.com
Attorneys for Petitioner
Alan Trowbridge

24

APPENDIX

25

